HHS/OIG, Audit -"Review of Administrative Costs for the Head Start and Early Head Start Programs
Claimed by KCMC Child Development Corporation - Kansas City, Missouri,"(A-07-04-02016)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Administrative Costs for the Head Start and Early Head Start Programs Claimed by
KCMC Child Development Corporation - Kansas City, Missouri," (A-07-04-02016)
April 28, 2005
Complete
Text of Report is available in PDF format (298 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of our review were to determine if (1) the compensation practices for five key executives
and teachers were reasonable and consistent with Federal requirements and guidelines; and (2) KCMCs
administrative costs were allowable and reasonable in accordance with the Head Start Act, corresponding
regulations at 45 CFR part 1301, and OMB Circulars A-110 and A-122.  We found that Compensation
for the teachers was reasonable and consistent with Federal requirements and guidelines.  With
regard to executive salaries, the executive directors was not reasonable, and there was no clear written
policy on compensation for any of the executives.  In addition, certain other administrative costs
were unallowable or unsupported.  We recommend that KCMC refund $953,245 of questioned administrative
costs.   KCMS did not comment on our findings and recommendation.